082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

Case Number:

1

24-1SJ
r "i

t

!

2
3

i

IN THE

4

r.‘

SUPREME COURT OF THE UNITED STATES!

5

c;

6

::1 v;;<

MINHNGA NGUYEN,

CASE: 18-36059 Ninth Circuit Court of Appeals
Petitioner, Appellant (Plaintiff),

vs.

Original Case: 2:15-cv-00793-RAJ,
Western Washington District Court

THE BOEING COMPANY,

Filing Date: August 24th, 2020

Respondent, Appellee (Defendant),
7

8

9
10
11
12
13
14
15
16
17

On Petition for a Writ of Certiorari to
The United States Court of Appeals for the Ninth Circuit and WW District Court

PETITION FOR A WRIT OF CERTIORARI

18
19
20

21
22
23
24
25

Minhnga Nguyen, Petitioner, Plaintiff Appellant
2917 95th Street SE
Everett, WA 98208
425-316-8621
Minhnga_Thisi@yahoo.com

26
27
28

29
30

31

RECEIVED
082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-007‘ 3-R^EB,age1l2020
[ OFFICE OF THE CLERK
I SUPREME COURTS I R

/

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

32

L

Brief facts and Questions Presented:

33

On May 20, 2015, Plaintiff Minhnga Nguyen, a 21 year engineer service for Boeing, filed a

34

lawsuit against Boeing to Western WA District Court (WWDC), case 2:15-cv-00793, alleging harassments

35

and wrongful 5 days suspension that occurred on August 07, 2014, with Discriminatory Intent based on

36

her race Asian, and sex female, age over 40; and Boeing's Retaliation to Plaintiffs Discrimination

37

Complaint filed to HR manager Heather Frasier on 10/17/14 against Frasier's staff HR Kim Conner, that

38

resulted in a wrongful brutal termination on 11/20/14 served by Kim Conner. Defendant yelled at

39

Plaintiff and it caused Plaintiff to fall down on the floor unconsciously, and it led to her injury.

40

Defendant threatened to throw Plaintiff in jail if she did not leave Boeing immediately. On Dec. 20,

41

2016, WWDC dismissed all Plaintiffs valid claims of harrassments, Disparate treatments and

42

Discrimination Claims; but it ruled Retaliation to Discrimination Complaint is valid for trial. Doc #46. On

43

May 02, 2018, Boeing committed Fraudulent Misrepsentation to produce a faked witness Jeff Hunter

44

who Plaintiff did not ever meet before, to testify in Court against Plaintiff. On November 28, 2018,

45

WWD Court held judgment against Plaintiff, Docl37- Docl38, regardless evidence had proved that

46

Boeing violated Title VII and it caused Plaintiff suffered physical pain, emotional distress & economic

47

hardship over five years of unemployment with minor children, and reputational damages. On June 11,

48

2020, the 9th Circuit Court of Appeals ruled in favor of Boeing. CA9-18-36059, Doc 31.

49

Boeing denied its Disparate ill-treatments and low paid for Plaintiff $93,450/year vs. male

50

employees $140,000/year working similar task, was based on her sex female and race Asian. Boeing

51

denied Retaliation to Plaintiff for she reported Employer's Misconduct on 03/14/14, but the fact showed

52

Boeing wrongfully suspended Plaintiff 5 days on 8/7/14 for she took a day of sick leave with permission.

53

Boeing denied the brutal termination it served Plaintiff on November 20, 2014 was based on her sex

54

female & race Asian, nor its Retaliation to her Discrimination filed against Boeing on October 17, 2014.

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ

Page 2

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

55

Fact 1: Plaintiff did not release airplane drawings not passing safety test on 3/14/14 in order to

56

save hundreds of human lives from potential airplane crashes. Boeing fired Plaintiff for "not follow

57

management direction". The clause in the Fifth Amendment reads: "No person shall... be deprived of

58

life, liberty, or property, without due process of law."

59
60

61

Question 1: Did Boeing violate the Fifth Amendment and public safety when it punished
Plaintiff for Plaintiff's saving hundreds of human lives from potential airplane crashes?
Fact 2: Plaintiff reported Boeing's misconduct on March 14, 2014. Boeing wrongful suspended

62

Plaintiff 5 days from work on August 7, 2014, knowing she had sent a proper written absence request to

63

her Acting Manager on 7/18/14 . On November 20, 2014, Boeing used its wrong punishments towards

64

Plaintiff on March 14, 2014 plus the wrongful suspension on August 7, 2014 as causes to brutally

65

terminate Plaintiff's employment. The Equal Protection Clause is from the text of the Fourteenth

66

Amendment, Prohibits Private Discrimination. It mandates that individuals in similar situations be

67

treated equally by the law.

68

Question 2: Did Boeing violate the Fourteen Amendement?

69

Fact 3: Boeing paid Plaintiff female Asian, Systems Engineer $93,450/year while it paid male

70

employees in her same skill code, similar situated in same group, working similar assignments, Matt

71

Koehler, Mike McWilliams, Herb Harvey, and Ted Yan $140,000/year. On 10/14/14, Boeing severely

72

tripled disciplined Plaintiff for her first time parking mistake with a written violation after it had towed

73

her car and it gave Plaintiff a Boeiing's parking ticket, while those Boeing four male employees who did

74

the same mistake only get a simple oral warning. On 10/17/14, Plaintiff filed a Discrmination Complaint

75

against Boeing HR Kim Conner and Gary Weber for Disparate ill-treatments to Kim Conner's supervisor,

76

HR manager Heather Frasier. Kim Conner fired Plaintiff brutally on 11/20/14. Defendant yelled at

77

Plaintiff and they had caused Plaintiff fallen down on the floor unconsciously, with bleeding and serious

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ

b

Page 3

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

78

neck injury. They even threatened to throw Plaintiff to jail if Plaintiff did not leave Boeing immediately.

79

Title VII prohibits Employment Discrimination based on sex, age, race, and it prohibits Employer's

80

Retaliation.

81

Question 3: Did Boeing violate Federal Law's Title VII, and the Equal Pay Act 1963?

82

Fact 4: On December 12, 2016, WW District Court ruled all dismissals of Plaintiff's valid

83

Discrimination claims. All dismissals are functional equivalents of mistrials. Both the 5th and the 14th

84

Amendements to the U.S. Constitution contain a Due Process Clause. Procedural Due Process

85

guarantees individuals a fair and legal process in criminal and civil matters.

86

Questionx 4: Was the WW District Court's decision in violation of the Fifth Amendement and

87

Fourteenth Constitutional Rights, as this Court has recognized, Discrimination may be so unjustifiable

88

as to be violative of due process?

89

Fact 5: Real Boeing security man Jeff Hunter was not called to testify for Plaintiff that on

90

November 20, 2014, he eyewitnessed the brutality Boeing HR Kim Conner and Keith Sellers had done

91

caused Plaintiffs injury. Boeing produced a faked witness Jeff Hunter who Plaintiff did not ever meet

92

before, to testify in Court against Plaintiff on May 3rd, 2018. Darryl Parker - Plaintiffs attorney -denied

93

Plaintiffs request to bring up Boeing's fraudulence to the trial Court's attention. Fraudulent

94

misrepresentation happens when six factors have been met: 1. a representation was made, 2. the

95

representation was false, 3. that when made, the defendant knew that the representation was false, 4.

96

that the fraudulent misrepresentation was made with the intention that the plaintiff rely on it, 5. that

97

the plaintiff did rely on the fraudulent misrepresentation, 6. that the plaintiff suffered harm as a result

98

of the fraudulent misrepresentation.

99

Question 5: Dib Boeing commit Fraudulent Misrepresentation?

100
082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ Page 4

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

101

TABLE OF CONTENTS:

II.

102

I.

103

QUESTIONS PRESENTED

p2-4

TABLE OF CONTENTS

p5

P5

104

III.

LIST OF ALL PARTIES

105

IV.

LIST OF ALL PROCEEDINGS IN FEDERAL COURT AND APPELLATE COURTS.....p5-7

106

V.

TABLE OF AUTHORITIES

P7

107

VI.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

p7-8

108

VII.

JURISDICTION

p8

109

VIII.

FACTS and STATEMENT OF THE CASE

110

p8-13

& EVIDENCES (10)

pl4-22
p23

Ill

IX.

REASONS for GRANTING THE PETITION FOR A WRIT OF CERTITORARI

112

X.

CONCLUSIONS

p23

113

XI.

CERTIFICATE OF COMPLIANCE

p24

114

III.

LIST OF ALL PARTIES:

115

a.

Minhnga Nguyen, petitioner, Plaintiff, Appellant.

116

b. The Boeing Company, respondent, represented by Davis Wright Tremaine: Paula

117

Lehman, Boris Gaviria, Mary Sanden; Morgan Lewis: Christopher Banks, Claire

118

Lesikar, Laurence Shapero in W. WA Distric Court; by C Banks, C Lesikar, L.

119

Shapero, and Perkins Coie: Erik Wolff, Sarah Schirack In Appellate Court.

120

IV.

121

1. Employment Security Hearing, Doc 012015-01294, Minhnga Nguyen v. Boeing

122
123

LIST OF ALL PROCEEDINGS IN STATE. WWD COURT AND APPELLATE COURTS

The State of Washington Employment Security Hearing Judge Britanni Stewart found
that Plaintiff Minhnga Nguyen did not commit "not follow management's direction", in

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ

L

Page 5

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

124

opposition to Boeing supervisor Gary Weber claimed she did. Weber admitted that his lead

125

Herb Harvey locked the common spreadsheet. Judge Stewart found Plaintiff is not at fault not

126

updated the spreadsheet. Audio recording of this hearing was submitted to 9th Circuit Court.

127

2. Case 2:15-cv-0793-RAJ, Western WA Distrcit Court

128

05/20/15:

Doc 1:

129

01/21/16:

Doc 29: Amended Complaint.

130

05/26/16:

Doc 42: Amended Comaplaint RevA, filed by Plaintiff per Order doc 41.

131

12/20/16:

Doc 46: Order Granting Defendant's Doc 43 Motion to Dismiss Discrimination claims.

132

01/11/17:

Doc 50: Motion for Reconsideration Doc 42, filed by Plaintiff.

133

06/30/17:

Doc 65: OrderDenying Motion for Reconsideration & Plaintiffs Discrimination Claims.

134

10/19/17:

Doc 89, 89.1: Motion For Sanctions Boeing, filed by Plaintiff.

135

10/23/17:

Doc 91:Notice Request Judicial Notice, evidence Boeing's Retaliation to Discrimination

136
137
138
139
140
141
142
143
144
145
146
147
148

4/27/18:

Plaintiffs Attorney Darryl Parker filed Objections to Deposition of Keith Sellers's on Doc
122-1, without Plaintiffs approval. Request Supreme Cout review Doc 122-1. Boeing
manager Keith Sellers amitted he only wanted verbal discussion with Plaintiff regards
her absence with proper notice, but Boeing wrongful suspended Plaintiff for 1st time
absence on 8/7/14, and it used this wrongful suspension to fire Plaintiff on 11/20/14.

05/03/18:

On this last day of the 3 day trial, Boeing produced a faked Boeing Security man Jeff

149

Complaint Against Boeing filed by Minhnga Nguyen, filing fee $400.

Hunter who Plaintiff never met before, to testify against Plaintiff in trial. Plaintiff
Minhnga Nguyen asked her attorney Darryl Parker, but he refused to report this
fraudulence to the Court. Plaintiff respectfully ask this U.S. Supreme Court to make
Boeing pays the maximum penalty for all Boeing Violations to The Fifth & Fourteen
Amendments, Violation to Title VII, and Fraudulent Misrepensentation.

05/04/18:

Doc 129,130,131: Official Transcript, court dates day 1,2,3 held on 4/30/18, 5/2/18,
and 5/3/18, respectively, before WWDC Judge Richard Jones.

150
151

05/18/18:

Doc 132: Proposed Findings of Fact by Darryl Parker for Plaintiff Minhnga Nguyen.

152

05/18/18:

Doc 133: Deposition Transcripts of Defendant Boeing manager Keith Sellers.

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ Page 6

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

153

11/28/18:

Doc 137-138: Judgment by Court against Plaintiff Minhnga Nguyen.

154

12/18/18

Doc 139: Notice of Appeal To Ninth Circuit case 18-36059. Filing fee $505.

155

12/21/18:

Doc 143: Motion to Amend WWDCourt's judgment 137-138.

156

157

3. Ninth Circuit Court of Appeals, case 18-36059:

158

2/12/19:

Doc 5: Submission of audio record evidence hearing held on 2/19/15 in front of

159

Judge Britani Stewart who found that Plaintiff Minhnga Nguyen did not commit

160

“not follow management’s direction” by US mail to the 9th Circuit Court:

161

3/24/19:

Doc 7, Opening Brief for Review, filed by Plaintiff Appellant Minhnga Nguyen

162

6/11/20:

Doc 31, 9th Circuit Court ruled against Plaintiff.

163
V.

164

TABLE OF AUTHORITIES:

Related Cases:

165

WA Employment Security Hearing, Docket 012015-01294, Minhnga Nguyen v. Boeing

p5-6

166

Washington Western District Court, case 2:15-cv-00793-RAJ, Minhnga Nguyen v. Boeing

p6-7

167

Ninth Circuit Court of Appeals, case 18-36059, Minhnga Nguyen v. Boeing

P7

168
169

VI.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED:

170
p3-4

171

The Fifth and Fourteenth Amendments

172

Title VII prohibits employment discrimination based on race, sex, and national origin

p2-8, p24

173

Title VII prohibits Discrimination/Retaliation against whistle blower

p2-8, p24

174

Fraudulent Misrepresentation

175

Equal Pay Act of 1963 -EPA-29 U.S. Code Chap. 8 § 206(d) prohibits wage discrimination base on sex, p4

176

28 U.S.C. §1291, §1331, §1332, §1345

p4

P8

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ Page 7

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

Pl2

177

29 U.S.Code 626(b). Enforcement/prohibition of age discrimination under fair labor standards,

178

42 U.S. Code §1981, Equal Rights under the Law

179

The Age Discrimination in Employment Act of 1967 (ADEA) prohibits Age Discrimination in Empl.....p2,8

pl2

180
181

VII.

JURISDICTION:

182

a.

The WWD Court had subject matter jurisdiction pursuant to 28 U.S.C. §1331, §1332, §1345.

183

b.

184

District Court's orders of June 30, 2017 (Doc 65) dismissed plaintiffs hostile work environment claim,

185

Disparate Treatments, Retaliation and Discrimination Claim based on sex, age, race; and orders of

186

November 28, 2018, (Doc 137-138) dismissed plaintiffs valid Retaliation claim. These orders are

187

appealable within 30 days after the district court's judgment on November 28, 2018, which explicitly

188

preserved Plaintiffs right to appeal the earlier orders,

Pursuant to 28 U.S.C. §1291, the Ninth Circuit Court has jurisdiction over this appeal from the

c.

189

This United States Supreme Court has the authority to review and reverse the lower court's

190

findings and rulings. This case is presenting issues of importance beyond the particular facts: it's

191

Boeing's violation of the Fifth Amendment, Fourteen Amendment, public safety, and Title VII. Plaintiff

192

timely filed its Petition for A WRIT OF CERTIORARI on August 28, 2020 within 90 days after entry of

193

judgment of the Ninth Circuit Court of Appeals orders on June 11, 2020.

194
195

196

VIII.
1.

199

Plaintiff Minhnga Nguyen started to work for Defendant The Boeing Company in June 1991 as an
Electrical Wire Design Engineer.

197
198

FACTS and STATEMENT OF THE CASE:

2.

Plaintiff is a female Vietnamese over 40 of age, had 21 year of service with Boeing. Plaintiff was
always rated efficient employee, between retention R2 to R1 (highest).

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ Page 8

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

200

3.

In 2014, Boeing paid Plaintiff female Asian, Systems Engineer 21 year experience, $93,450/year

201

while it paid male employees in her same skill code, similar situated in same group, working

202

similar assignments, Matt Koehler, Mike McWilliams, and Herb Harvey $140,000/year.

203

4.

February 2012, Boeing supervisor Gary Weber offered Diego Hiebner, a 30 year old white male

204

the lead position. Diego stated that he didn't know as much technical stuff as Plantiff, thus he

205

turned down the offer. Mr. Weber then promoted 39 year old male employee, Herb Harvey, to

206

be Plaintiff's lead, even though Plaintiff was subject matter expert(SME), and Plaintiff trained

207

Harvey how to work. Dorothy Todd's email, in Boeing's trial exh 10.28.2017 pll of 39. Doc 143.

208

5.

March 2012, Boeing assigned Dorothy Todd supervisor of Plaintiff. Dorothy rated Plaintiff

209

efficient, solid engineer, but she ranked Plaintiff R3. See Dorothy Todd's email dated 02/19/14,

210

Boeing's trial exhibit 10.28.2017 pll of 39. See Doc 143, attachment 1, Minhnga Nguye SME.

211

6.

February 2014, Plaintiff Ms. Nguyen emailed to five Boeing Systems Engineer managers, in

212

which Plaintiff asked for upgrading her retention. Mary Morcom sent a copy to Dorothy Todd.

213

Dorothy Todd was mad at Plaintiff and she wrote: "Your email was inappropriate".

214

7.

On March 14, 2014, Plaintiff did not release Boeing's airplane drawings not passing safety test

215

in order to save hundreds of human lives from potential airplane crashes. Boeing supervisor

216

Dorothy Todd punished Plaintiff with a written warning "not follow direction". On this memo,

217

Plaintiff reported Employer's Misconduct with Comments: "I am a victim of James Michael

218

Todd (husband) and Dorothy Todd (wife). I was downgraded by JMT and Dorothy retaliating me

219

for reporting the incidence of the Hamilton Sunstrand trip in 2009, when JMT made Katie

220

Vandermeer Retention R1 to satisfy his personal need. That's IT." Doc 42, p29. This Doc pl4.

221
222

8.

April 2014, Boeing promoted Keith Sellers to senior manager. Sellers announced work force
reduction. Doc 42, p30, testimony of Ted Yan. This Doc p22.

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ

>

Page 9

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

223

9.

May 2014, when Plaintiff Ms. Nguyen asked for promotion, Boeing supervisor Gary Weber

224

purposefully insulted Plaintiff and he made Plaintiff cried with his comment: "For what you do, I

225

can get a drafter to replace you", knowing well Plaintiff was a 21 year experience engineer

226

working for Boeing. Trial Transcript, Minhnga Nguyen May 02, 2018.

227

10. Friday July 18th, 2014, Gary Weber delegated Jeff Vick to be acting manager. Plaintiff Ms.

228

Nguyen emailed Jeff Vick at 3pm: "I just stepped out of the lady's restroom North end on 1st

229

floor of our bldg., and there was a thief stole my eyeglasses. I can't work around thieves, and

230

will need to take a couple of days off due to this very unhappy experience." Doc 42, pl4. This

231

Doc, pl6. Friday July 18th, 2014 at 3:15pm, Plaintiff went home sick.

232

11. On Monday August 4th, 2014, Gary Weber and Keith Sellers seized Plaintiff Ms. Nguyen's

233

assigned laptop while they continued allowing themselves and all male employees in their group

234

privilege remain laptops and work from home.

235

12. On August 07, 2014, Boeing HR Kim Conner wrongfully suspended Plaintiff Ms. Nguyen 5 day

236

without pay for Plaintiff took one sickday on July 21, 2014, knowing Plaintiff had sent a proper

237

absence notice to her acting manager Jeff Vick.

238

13. On September 09th, 2014, Boeing towed Plaintiffs car and it made Plaintiff paid Boeing $253 to

239

get her car back, and Boeing gave her a parking ticket, while 15 other cars parked similarly on

240

unpainted spots near Plaintiff were not equally towed nor ticketed.

241

14. On October 10th, 2014, Gary Weber orally approved Plaintiff one flex time request for taking

242

Wednesday October 22th, 2014 off; but he denied Plaintiffs female employee permanent flex

243

time request, while he continued to approve male employees Herb Harvey and W. Engida to

244

work from home, and flex their time to work lOhrs/day for 4 weekdays.

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ Page 10

b

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

245

15. On October 14, 2014, Boeing intentionally triple disciplined Plaintiff with a written warning,

246

followed up with towing her car on September 09, 2014, and a Boeing parking ticket, disregard

247

Boeing's policy is oral warning for 1st time parking mistake. See pl6, Doc 42.

248

16. On October 17, 2014, Plaintiff filed an Discrimination Complaint to Boeing HR manager Heather

249

Frasier against Fraiser's direct staff HR Kim Conner, managers Keith Sellers & Gary Weber.

250

Plaintiff wrote: "Under Gary's direction, everything had to go through Herb Harvey. HH collected

251

my data, use it and created his file, put a lock on it thus I couldn't update, then he reported to

252

management that I don't cooperate,

253

avoid Gary & Herb & Kim Conner work together, and their repetition try to discipline me again.

254

The incidents: 08/07/14:1) 1st Discipline for no reason, after Gary took away my laptop on

255

08/05/14, and they suspended me 5 day on 8/7/14. 2) 10/14/14: A written warning for parking

256

without oral warning, after I sent out a truthful report that Herb Harvey didn't work on any

257

Functional Schematics for 60 days. Additional Information to be considered: I'm a woman,

258

minority, and English is not my mother language. As manager and HR, Gary and Kim Conner

259

didn't provide me helpful resources, but they just want to put black mark on my records in order

260

to get rid of me." See Doc 42, pl7 & pl8. Doc 143, pl6 & pl7. This Doc p23-24.

Briefly, I would like to get your help to make sure I can

261
262

17. PLaintiff took Wednesday 10/22/14 off as Mr. Weber orally pre-approved it on October 10th,

263

2014. On Friday October 24th, 2014, a week after Plaitiff filed Discrimination against Gary

264

Weber on 10/17/14, he accused Plaintiff of not having his approval.

265

18. On November 20th, 2014, Kim Conner and Keith Sellers called a meeting with Plaintiff during her

266

lunch time. Keith Sellers gave Plaintiff a 5 day suspension for a parking mistake that should be

267

oral warning per Boeing's policy. Plaintiff asked to bring Boeing Union SPEEA Rep (Mike

268

McWilliams), but Keith Sellers yelled: “It's too late!" Plaintiff asked: "You suspended me 5 days

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ Page 11

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

269

for I took one sick day, knowing I had sent a proper prior notice to my acting manager. Now you

270

suspend me 5 days for a parking? Is it because of my sex female, me being Vietnamese?" Keith

271

Sellers yelled at Plaintiff: "You don't want that? Then take thisl" when he issued the wrongful

272

discharge. Minhnga Nguyen's trial exhibit, May 2nd, 2018. See the discharge, page 22.

273
274

19. As Plaintiff was reaching out of the room to get help, Keith Sellers blocked her way. Kim Conner

275

called Boeing Security. Five big men with guns entered the room. They caused Plaintiff panic

276

attack, and they caused Plaintiff falling on the floor unconsciously. Defendants caused plaintiffs

277

head knocked against the wall: her shoulder was injured, and her neck was almost broken. Her

278

lips were bleeding, and the fillings of her molar tooth had fallen out. One defendant kept on

279

repeatedly yelling at Plaintiff: "Do you want to be thrown in jail? If you don't leave, you will be

280

thrown in jail!" when Plaintiff Ms. Nguyen was sitting on the floor with bleeding in severe pain.

281

Boeing and Minhnga Nguyen's trial transcript, May 2nd, 2018.

282

20. On November 20th, 2014, Plaintiff Ms. Nguyen's Boeing Systems engineer Asian female salary

283

was $93,450 vs. her male co-worker, in the same group, Herb Harvey's salary was $140,000

284

while Plaintiff mentored Harvey and she provided all training to Harvey. Harvey's trial

285

transcript, May 3rd, 2018.

286

21. Boeing has a policy not to discharge employee unless after 3 repetitions on the same category.

287

22. On December 12, 2014 after 3 week investigation, Boeing Union SPEEA determined "Minhnga

288

Nguyen's termination is in violation of the collective bargaining agreement. We request that

289

Minhnga Nguyen be made whole in every way, including, but not limited to, reinstatement

290

with back-pay", and Union submitted grievance to Boeing. March 2015, Boeing denied

291

grievance due to Plaintiffs sex female and race Asian. See Doc 42, p21.

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ Page 12

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

292

23. On February 19, 2015, Docket 012015-01294, Employment Security Hearing in front of

293

Washington State Judge Brittani Stewart findings of fact: Employer had failed to establish

294

evidence Plaintiff was discharged for misconduct. Doc 42, p22-26. Gary Weber admitted he

295

received email from Plaintiff captured the times when Herb Harvey locked the spreadsheet.

296

Trial Exhibit. Mav 3fd. 2018. Case 18-36059. Doc 6. audio hearing.

297

24. Plaintiffs doctor recommended a CAT scan of her head on 11/24/14, and an X-ray for her almost

298

broken neck, caused byBoeing defendants. X-ray for Plaintiffs neck was performed on

299

11/24/14. The CAT scan in Swedish hospital was scheduled on 12/01/14. Plaintiff was denied

300

$8,000.00 CAT scan of her head due to Boeing medical coverage ended on 11/30/2014. Boeing

301

had caused Plaintiff suffered physical pain & many months with subsequent severe head pain

302

and significant amount of sleep-loss, emotional distress & economic hardship over five years of

303

unemployment with minor children, and reputational damages.

304

25. Direct Evidence of Boeing committed Retaliation to Plaintiffs Discrimination filed on 10/17/14:

305

the same people that Plaintiff complained against (Kim Conner, Gary Weber, Keith Sellers),

306

brutally discharged Plaintiff on 11/20/14.

307
308

26. Boeing failed to pay Plaintiff $10,000 Employee Incentive Bonus for the 2000 hours Plaintiff
worked for Boeing in 2014, under its own contract term.

309

27. The WWD Court and the 9th Circuit Court failed to weigh the most significant important element

310

in this case, Public Safety: Boeing fired/punished Plaintiff for Plaintiffs effort trying to save

311

hundreds of human lives from potential airplane crashes.

312

28. Real Boeing security man Jeff Hunter eyewitnessed on November 20, 2014, the brutality Boeing

313

HR Kim Conner and Keith Sellers had caused Plaintiffs injury. Boeing produced a faked witness

314

Jeff Hunter who Plaintiff did not ever meet before, to testify against Plaintiff on May 3rd, 2018 in

315

Trial Court.

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ Page 13

082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Case 18-36059_CA9_WWDC cv-00793-RAJ

365
366

IX.

REASONS for GRANTING the PETITION:
A normal jury would find : Boeing's abusive treatment to Plaintiff was severe, affected the terms

367

and conditions of her employment, was either because of Plaintiff reported Boeing's misconduct on

368

March 14, 2014, or Retaliation to her Discrimination Complaint, or because of her race Asian and sex

369

female. On August 7, 2014, Boeing suspended Plaintiff for she took one day of sickleave with advanced

370

notice. Boeing underpaid Plaintiff Asian female engineer at $93,450/year while it paid male employees

371

working similar task at $140,000/year. Put simply, if Plaintiff would have been treated differently had

372

she been of the other sex, then the discrimination was totally based on sex. The WWD Court's decision

373

not to allow trial on Retaliation Claim, Discrimination Claims and Disparate Treatments Claims, is not

374

supported by the evidence submitted. All dismissals are functional equivalents of mistrials.

375

Plaintiff's Discrimination Complaint filed to Boeing HR manager Heather Frasier on October 17,

376

2014 against Frasier's staff HR Kim Conner, managers Gary Weber and Keith Sellers, was followed up by

377

a brutal discharge served by these same people that Plaintiff complained Discrimination against, on

378

November 20, 2014. This is solid Proof Boeing violated Title VII.

379

Most important, the WWD Court and the 9th Circuit Court of Appeals failed to realize public

380

safety is putting at high risk by Boeing, when Boeing disciplined Plaintiff on March 14,2014 for

381

Plaintiff's effort saving hundreds of human lives from potential airplane crashes. There can be no

382

denying the fact that the right to life is a human right which cannot be compromised.

383
384

385

386
387
388
389
390

X.

CONCLUSION:

The petition for a writ of certiorari should be granted.

Dated: August 24th, 2020
Minhw^a Nguyen, Petitioner
2917 95th Street SE
Everett, WA 98208
425-316-8621
Minhnga_Thisi@yahoo.com
082420_US Supreme Court_PET for A WRIT OF CERTIORARI_Casel8-36059_CA9_ cv-00793-RAJ Page 23

